                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Robert F. Mangano
1st Constitution Bancorp
2650 Route 130
Cranbury, NJ 08512

Dear Mr. Robert F. Mangano, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Greg Gibson
1st FS Corporation/ Mountain 1st Bank & Trust
101 Jack St.
Hendersonville, NC 28792

Dear Mr. Greg Gibson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Jack H. Webb
Alliance Financial Corporation
120 Madison Street, 18th Floor
Syracuse, NY 13202

Dear Mr. Jack H. Webb, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Daniel T. Henry
American Express Company
200 Vesey Street
New York, NY 10285

Dear Mr. Daniel T. Henry, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Donald R. LacKamp
American State Bancshares
1321 Main Street
Great Bend, KS 67530

Dear Mr. Donald R. LacKamp, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Edwin W. Hortman, Jr.
Ameris Bancorp/ Ameris Bank
24 Second Ave. SE
Moultrie, GA 31768

Dear Mr. Edwin W. Hortman, Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Allan Dennison
AmeriServ Financial, Inc
216 Franklin Street
Johnstown, PA 15901

Dear Mr. Allan Dennison, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Joseph B. Selner
Associated Banc-Corp
1200 Hansen Road
Green Bay, WI 54304

Dear Mr. Joseph B. Selner, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Linda H. Simmons
Bancorp Rhode Island, Inc./Bank Rhode Island
One Turks Head Place, 16th Floor
Providence, RI 02903

Dear Ms. Linda H. Simmons, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. F. Michael Johnson
BancTrust Financial Group, Inc./Bank Trust
100 Saint Joseph Street
Mobile, AL 36602

Dear Mr. F. Michael Johnson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009




Mr. Joe L. Price
Bank of America Corp.
100 North Tryon Street
Charlotte, NC 28255

Dear Mr. Joe L. Price, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009




Bank of America (Merrill Lynch)

New York, NY

Dear Sir or Madam, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. David Keul
Bank of Commerce
100 Queens Road
Charlotte, NC 28204

Dear Mr. David Keul, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Linda J. Miles
Bank of Commerce Holdings
1951 Churn Creek Rd.
Redding, CA 96002

Dear Ms. Linda J. Miles, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Russell A. Colombo
Bank of Marin Bancorp
504 Redwood Boulevard, Suite 100
Novato, CA 94947

Dear Mr. Russell A. Colombo, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009




Bank of New York Mellon Corp
Mr. Todd P. Gibbons
One Wall Street
New York, NY 10286

Dear Mr. Todd P. Gibbons, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. W. Swope Montgomery, Jr.
Bank of North Carolina
831 Julian Avenue
Thomasville, NC 27360

Dear Mr. W. Swope Montgomery, Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. George G. Gleason
Bank of the Ozarks, Inc.
12615 Chenal Parkway
Little Rock, AR 72211

Dear Mr. George G. Gleason, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. D. Michael Jones
Banner Corporation/Banner Bank
10 S First Ave. P.O. Box 907
Walla Walla, WA 99362

Dear Mr. D. Michael Jones, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Joseph M. Murphy
Bar Harbor Bankshares/Bar Harbor Bank & Trust
82 Main Street
Bar Harbor, ME 04609

Dear Mr. Joseph M. Murphy, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Christopher L. Henson
BB&T Corp.
200 West 2nd St.
Winston-Salem, NC 27101

Dear Mr. Christopher L. Henson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Joe Bouffard
BCSB Bancorp, Inc.
4111 East Joppa Road
Baltimore, MD 21236

Dear Mr. Joe Bouffard, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Kevin P. Riley
Berkshire Hills Bancorp, Inc.
24 North Street
Pittsfield, MA 01201

Dear Mr. Kevin P. Riley, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Robert D. Regnier
Blue Valley Ban Corp
11935 Riley
Overland Park, KS 66213

Dear Mr. Robert D. Regnier, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Gregory K. Cleveland
BNCCORP, Inc.
2425 East Camelbank Road, Suite 100
Phoenix, AZ 85016

Dear Mr. Gregory K. Cleveland, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. David J. Kaye
Boston Private Financial Holdings Inc.
Ten Post Office Square
Boston, MA 02109

Dear Mr. David J. Kaye, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Thomas A. Sa
Bridge Capital Holdings
55 Almaden Blvd., Suite 100
San Jose, CA 95113

Dear Mr. Thomas A. Sa, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. William L. Conaghan
Bridgeview Bancorp, Inc./ Bridgeview Bank Group
7940 S. Harlem Avenue
Bridgeview, IL 60455

Dear Mr. William L. Conaghan, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Sam Sarpong
Broadway Financial Corporation/ Broadway Federal Bank
4800 Wilshire Blvd
Los Angeles, CA 90010

Dear Mr. Sam Sarpong, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Thomas F. Cherry
C&F Financial Corporation
802 Main Street
P.O. Box 391
West Point, VA 23181

Dear Mr. Thomas F. Cherry, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Gregg Miller
Cache Valley Banking Company
101 North Main
Logan, UT 84321

Dear Mr. Gregg Miller, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Richard T. Haston
Cadence Financial Corporation
301 East Main Street
Starkville , MS 39759

Dear Mr. Richard T. Haston, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Stephen Ashman
Capital Bancorp, Inc.
One Church Street, Suite 300
Rockville, MD 20850

Dear Mr. Stephen Ashman, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. B. Grant Yarber
Capital Bank
333 Fayetteville Suite 700
Raliegh, NC 27601

Dear Mr. B. Grant Yarber, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Andres L. Navarrete
Capital One Financial Corporation
1680 Capital One Dr.
McLean, VA 22102

Dear Mr. Andres L. Navarrete, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Ms. Felice Belfiore
Capital Pacific Bancorp
805 SW Broadway Suite 780
Portland, OR 97205

Dear Ms. Felice Belfiore, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Allen Lilies
Carolina Bank Holdings, Inc.
101 North Spring Street
Greensboro, NC 27401

Dear Mr. Allen Lilies, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Deborah C. Wright
Carver Bancorp, Inc.
75 West 125th Street
New York, NY 10027

Dear Ms. Deborah C. Wright, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Lars Johnson
Cascade Financial Corporation
2828 Colby
Everett, WA 98201

Dear Mr. Lars Johnson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Perry Oei
Cathay General Bancorp/ Cathay Bank
777 North Broadway Street
Los Angeles , CA 90012

Dear Mr. Perry Oei, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Mary B. Halsey
Cecil Bancorp, Inc.
127 North Street
P.O. Box 568
Elkton, MD 21922-0568

Dear Ms. Mary B. Halsey, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Anthony C. Weagley
Center Bancorp, Inc.
2455 Morris Avenue
Union, NJ 07083

Dear Mr. Anthony C. Weagley, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Jae Whan (J.W.) Yoo
Center Financial Corporation/Center Bank
3435 Wilshire Boulevard, Suite 700
Los Angeles, CA 90010

Dear Mr. Jae Whan (J.W.) Yoo, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. James J. Antal
Centerstate Banks of Florida Inc.
42745 U.S. Highway 27
Davenport, FL 33837

Dear Mr. James J. Antal, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Douglas J. Leech
Centra Financial Holdings, Inc./Centra Bank, Inc.
990 Elmer Prince Drive
Morgantown, WV 26505

Dear Mr. Douglas J. Leech, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. John D. Doherty
Central Bancorp, Inc./Central Co-operative Bank
399 Highland Ave.
Somerville, MA 02144

Dear Mr. John D. Doherty, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Mark S. Allio
Central Federal Corporation
2923 Smith Road
Fairlawn, OH 44333

Dear Mr. Mark S. Allio , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. James S. Vaccaro
Central Jersey Bancorp
1903 Highway 35
Oakhurst, NJ 07755

Dear Mr. James S. Vaccaro, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Dean K. Hirata
Central Pacific Financial Corp.
220 South King St. Ste 2200
Honolulu, HI 96813

Dear Mr. Dean K. Hirata, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Kurt R. Stevenson
Centrue Financial Corporation
7700 Bonhomme Avenue
St. Louis, MO 63105

Dear Mr. Kurt R. Stevenson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Jeffrey M. Peek
CIT Group Inc.
505 Fifth Avenue
New York, NY 10017

Dear Mr. Jeffrey M. Peek, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009




Citigroup Inc.
Mr. Gary L. Crittenden
399 Park Avenue
New York, NY 10022

Dear Mr. Gary L. Crittenden, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Craig G. Litchfield
Citizens & Northern Corporation
90-92 Main Street
Wellsboro, PA 16901

Dear Mr. Craig G. Litchfield, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Judith Hess
Citizens Bancorp
208 Providence Mine RD. #122
Nevada City, CA 95959

Dear Ms. Judith Hess, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. James R. Black
Citizens Community Bank
800 N. Mecklenburg Ave.
South Hill, VA 23970

Dear Mr. James R. Black, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Ms. Mary D. Cohron
Citizens First Corporation
1065 Ashley Street
Bowling Green, KY 42103

Dear Ms. Mary D. Cohron, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Charles D. Christy
Citizens Republic Bancorp, Inc.
328 S. Saginaw Street
Flint, MI 48502

Dear Mr. Charles D. Christy, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Kim S. Price
Citizens South Bank
519 South New Hope Road
Gastonia, NC 28054-4040

Dear Ms. Kim S. Price, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Russell Goldsmith
City National Corporation
400 North Roxbury Dr.
Beverly Hills, CA 90210

Dear Mr. Russell Goldsmith, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Mike Sanchez
Coastal Banking Company, Inc.
Fernandina Beach, FL

Dear Mr. Mike Sanchez, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Lyne Andrich
CoBiz Financial Inc.
821 17th Street
Denver, CO 80202

Dear Ms. Lyne Andrich, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Harry R. Swift
Codorus Valley Bancorp, Inc.
105 Leader Heights Road, P.O. Box 2887
York, PA 17405-2887

Dear Mr. Harry R. Swift, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Terry L. Hester
Colony Bankcorp, Inc./Colony Bank
115 S Grant Street
P.O. Box 989
Fitzgerald, GA 31750

Dear Mr. Terry L. Hester, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Melanie J. Dressel
Columbia Banking System Inc.
1301 A Street
Tacoma, WA 98402

Dear Ms. Melanie J. Dressel, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Ralph W. Babb, Jr.
Comerica Inc.
1717 Main St.
Dallas, TX 75201

Dear Mr. Ralph W. Babb, Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Mark E. Simmons
Commerce National Bank
4040 MacArthur Blvd., Suite 100
Newport Beach, CA 92660

Dear Mr. Mark E. Simmons, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Mark A. Lund
Community 1st Bank
2250 Douglas Boulevard, Suite 100
Roseville, CA 95661

Dear Mr. Mark A. Lund, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Brian K. Garrett
Community Bank of the Bay
1750 Broadway
Oakland, CA 94612

Dear Mr. Brian K. Garrett, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Bruce E. Thomas
Community Bankers Trust Corporation
4235 Innslake Drive
Glen Allen, VA 23060

Dear Mr. Bruce E. Thomas, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. R. Jerry Giles
Community Financial Corporation
38 N. Central Avenue
Staunton, VA 24401

Dear Mr. R. Jerry Giles, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Phillip W. Gerber
Community Investors Bancorp, Inc.
119 S. Sandusky Ave.
Bucyrus, OH 44820

Dear Mr. Phillip W. Gerber, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. James K. Kendrick
Community Trust Financial Corporation
1511 N. Trenton St.
Ruston, LA 71270

Dear Mr. James K. Kendrick, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Lynda J. Nahra
Community West Bancshares
445 Pine Avenue
Goleta, CA 93117

Dear Ms. Lynda J. Nahra, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. F. Harvin Ray, Jr.
Congaree Bancshares, Inc.
2023 Sunset Blvd.
P.O. Box 3018
West Columbia, SC 29171

Dear Mr. F. Harvin Ray, Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Michael G. Carlton
Crescent Financial Corporation
1005 High House Rd.
Cary, NC 27513

Dear Mr. Michael G. Carlton, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Roger Cromer
Crossroads Bank (FFW)
1205 North Cass St.
Wabash, IN 46992

Dear Mr. Roger Cromer, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Edward J. Biebrich Jr.
CVB Financial Corp
701 North Haven Avenue suite 350
Ontario, CA 91764

Dear Mr. Edward J. Biebrich Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Rick L. Smalley
Dickinson Financial Corporation II
1111 Main Street, Suite 1600
Kansas City, MO 64105

Dear Mr. Rick L. Smalley, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Michael T. Flynn
Eagle Bancorp, Inc.
7815 Woodmont Ave
Bethesda, MD 20814

Dear Mr. Michael T. Flynn, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Tom Tolda
East West Bancorp
135 North Los Robles Avenue
Pasadena, CA 91101

Dear Mr. Tom Tolda, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Joe A. Shearin
Eastern Virginia Bankshares, Inc.
330 Hospital Road
Tappahannock, VA 22560

Dear Mr. Joe A. Shearin, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Arthur H. Keeney III
ECB Bancorp, Inc./East Carolina Bank
35050 US Hwy 264
P.O. Box 337
Engelhard, NC 27824

Dear Mr. Arthur H. Keeney III, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. William C. Marsh
Emclaire Financial Corp./The Farmers National Bank of Emlenton
612 Main Street
P.O. Drawer D
Emlenton, PA 16373

Dear Mr. William C. Marsh, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. James S. D'Agostino Jr.
Encore Bancshares Inc.
Nine Greenway Plaza, Suite 1000
Houston, TX 77046

Dear Mr. James S. D'Agostino Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Frank Sanfilippo
Enterprise Financial Services Corp./ Enterprise Bank & Trust
150 N. Meramec
St. Louis, MO 63105

Dear Mr. Frank Sanfilippo, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Bill Schrader
Exchange Bank
545 Fourth Street
Santa Rosa, CA 95401

Dear Mr. Bill Schrader, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. James G. Orie
F.N.B. Corporation
One F.N.B. Boulevard
Hermitage, PA 16148

Dear Mr. James G. Orie, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Doug Carpenter
Farmers Capital Bank Corporation
202 W Main Street
Frankfort, KY 40601

Dear Mr. Doug Carpenter, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Brian G. Karst
FCB Bancorp, Inc.
293 N. Hubbards Lane
Louisville, KY 40207

Dear Mr. Brian G. Karst, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Richard G. Spencer
Fidelity Bancorp, Inc.
1009 Perry Highway
Pittsburgh, PA 15237

Dear Mr. Richard G. Spencer, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Bruce Wilgers
Fidelity Financial Corporation
100 E. English
Wichita, KS 67202

Dear Mr. Bruce Wilgers, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                  OFFICE OF THE SPECIAL INSPECTOR GENERAL
                      TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. James B. Miller, Jr.
Fidelity Southern Corporation
3490 Piedmont Road NE, Suite 1550
Atlanta, GA 30305

Dear Mr. James B. Miller, Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Paul L. Reynolds
Fifth Third Bancorp
38 Fountain Square Plaza
Cincinnati, OH 45263

Dear Mr. Paul L. Reynolds, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                  OFFICE OF THE SPECIAL INSPECTOR GENERAL
                      TROUBLED ASSET RELIEF PROGRAM
                               1500 Pennsylvania Ave., N.W., Suite 1064
                                      Washington, D.C. 20220

                                       February 6, 2009



Mr. Daniel Hagi
Financial Institutions, Inc.
220 Liberty Street
Warsaw, NY 14569

Dear Mr. Daniel Hagi, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                    (1) A narrative response specifically outlining (a) your anticipated use of
                        TARP funds; (b) whether the TARP funds were segregated from other
                        institutional funds; (c) your actual use of TARP funds to date; and (d)
                        your expected use of unspent TARP funds. In your response, please take
                        into consideration your anticipated use of TARP funds at the time that
                        you applied for such funds, or any actions that have taken that you would
                        not have been able to take absent the infusion of TARP funds.

                    (2) Your specific plans, and the status of implementation of those plans, for
                        addressing executive compensation requirements associated with the
                        funding. Information provided regarding executive compensation should
                        also include any assessments made of loan risks and their relationship to
                        executive compensation; how limitations on executive compensation will
                        be implemented in line with Department of Treasury guidelines; and
                        whether any such limitations may be offset by other changes to other,
                        longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Eric P. Credle
First Bancorp
341 North Main Street
Troy, NC 27371

Dear Mr. Eric P. Credle, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Lawrence Odell
First BanCorp
PO Box 9146
San Juan , PR 00908-0146

Dear Mr. Lawrence Odell, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Arthur Greenbank
First Bankers Trustshares, Inc.
1201 Broadway
Quincy, IL 62301

Dear Mr. Arthur Greenbank, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Terrance M. McCarthy
First Banks, Inc.
135 N. Meramec
Clayton, MO 63105

Dear Mr. Terrance M. McCarthy, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                        February 6, 2009



Mr. C.G. Kum
First California Financial Group, Inc
3027 Townsgate Road, Suite 300
Westlake Village, CA 91361

Dear Mr. C.G. Kum, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. David D. Brown
First Community Bancshares Inc.
One Community Place
P.O. Box 989
Bluefield, VA 24605-0989

Dear Mr. David D. Brown, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Stan McClelland
First Community Bank Corporation
9001 Belcher Road
Pinellas Park, FL 33783

Dear Mr. Stan McClelland, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Joseph G. Sawyer
First Community Corporation
5455 Sunset Boulevard
Lexington, SC 29072

Dear Mr. Joseph G. Sawyer, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Bill Small
First Defiance Financial Corp.
601 Clinton Street
Defiance, OH 43512

Dear Mr. Bill Small, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Claude E. Davis
First Financial Bancorp
400 Smith Rd. Suite 400
Cincinnati, OH 45209

Dear Mr. Claude E. Davis, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. R. Wayne Hall
First Financial Holdings Inc.
35 Broad Street
Charleston, SC 29401

Dear Mr. R. Wayne Hall, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. B. Keith Johnson
First Financial Service Corporation
2323 Ring Road
Elizabethtown, KY 42701

Dear Mr. B. Keith Johnson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. D. Bryan Jordan
First Horizon National Corporation
165 Madison Ave.
Memphis, TN 38103

Dear Mr. D. Bryan Jordan, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Joseph J. Greco
First Litchfield Financial Corporation
13 North Street
P.O. Box #578
Litchfield, CT 06759

Dear Mr. Joseph J. Greco, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Thomas J. Bare
First Manitowoc Bancorp, Inc.
402 North 8th Street
Manitowoc, WI 54221

Dear Mr. Thomas J. Bare, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Michael L. Scudder
First Midwest Bancorp, Inc.
1 Pierce Plaza Suite 1500
Itasca, IL 16143

Dear Mr. Michael L. Scudder, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. John R. Kocleml
First Niagara Financial Group
6950 S. Transit Rd
P.O. Box 514
Lockport, NY 14095

Dear Mr. John R. Kocleml, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                               1500 Pennsylvania Ave., N.W., Suite 1064
                                      Washington, D.C. 20220

                                       February 6, 2009



Mr. James P. Sheehy
First PacTrust Bancorp, Inc.
610 Bay Boulevard
Chula Vista, CA 91910

Dear Mr. James P. Sheehy, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                  OFFICE OF THE SPECIAL INSPECTOR GENERAL
                      TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Rodger B. Holley
First Security Group, Inc.
531 Broad Street
Chattanooga, TN 37402

Dear Mr. Rodger B. Holley, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Jan Gould
First Sound Bank
925 Fourth Avenue, Suite 2350
Seattle, WA 98104

Dear Ms. Jan Gould, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                               1500 Pennsylvania Ave., N.W., Suite 1064
                                      Washington, D.C. 20220

                                       February 6, 2009



Ms. Judith A. Steiner
Firstmerit Corporation
111 Cascade Plaza 7th floor
Akron, OH 44308

Dear Ms. Judith A. Steiner, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. John R. Buran
Flushing Financial Corporation
1979 Marcus Ave. Suite E140
Lake Success, NY 11042

Dear Mr. John R. Buran, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Nancy E. Aumack
FPB Bancorp, Inc.
1301 SE Port St. Lucie Blvd
Port St. Lucie, FL 34952

Dear Ms. Nancy E. Aumack, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                  OFFICE OF THE SPECIAL INSPECTOR GENERAL
                      TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. R. Scott Smith Jr.
Fulton Financial Corporation
One Penn Square
Lancaster, PA 17602

Dear Mr. R. Scott Smith Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009




Goldman Sachs & Co.
Mr. David Viniar
85 Broad Street
New York, NY 10004

Dear Mr. David Viniar, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Ronald K. Earnest
GrandSouth Bancorporation
381 Halton Road
Greenville, SC 29606

Dear Mr. Ronald K. Earnest, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Bryan S. Tiede
Great Southern Bancorp/ Great Southern Bank
218 S Glenstone
Springfield, MO 65802

Dear Mr. Bryan S. Tiede, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. R. Stan Puckett
Green Bankshares, Inc.
100 North Main Street
Greeneville, TN 37743

Dear Mr. R. Stan Puckett, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Jack W. Gibson
Hampton Roads Bankshares, Inc.
999 Waterside Drive, Suite 200
Norfolk, VA 23510

Dear Mr. Jack W. Gibson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. James E. Smith
Hawthorn Bancshares, Inc.
300 SW Longview Blvd.
Lee's Summit, MO 64081

Dear Mr. James E. Smith, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. John K. Schmidt
Heartland Financial USA, Inc.
1398 Central Avenue
Dubuque, IA 52004-0747

Dear Mr. John K. Schmidt, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Lawrence D. McGovern
Heritage Commerce Corp.
150 Almaden Blvd.
San Jose, CA 95113

Dear Mr. Lawrence D. McGovern, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Brian Vance
Heritage Financial Corporation
201 5th Avenue SW
Olympia, WA 98501

Dear Mr. Brian Vance, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Curtis L. Hage
HF Financial Corp
225 South Main Ave.
Sioux Falls, SD 57104

Dear Mr. Curtis L. Hage, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Jon Eberle
HMN Financial, Inc.
1016 Civic Center Drive NW
Rochester, MN 55901

Dear Mr. Jon Eberle, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Randy E. Myor
Home Bancshares, Inc.
719 Harkrider St Ste 100
Conway, AR 72032

Dear Mr. Randy E. Myor , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Billy Duvall
HopFed Bancorp
4155 Lafayette Road
Hopkinsville, KY 42240

Dear Mr. Billy Duvall, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. James H. Foglesong
Horizon Bancorp
515 Franklin Square
Michigan City, IN 46360

Dear Mr. James H. Foglesong, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. James W. Nelson
Huntington Bancshares
41 South High St.
Columbus, OH 43287

Dear Mr. James W. Nelson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. John Davis
Iberiabank Corporation
200 West Congress Street
Lafayette, LA 70501

Dear Mr. John Davis, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Bruce W. Barfuss
Idaho Bancorp
7661 W. Riverside Drive
Boise, ID 83714

Dear Mr. Bruce W. Barfuss, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. John Charette
Independence Bank
1370 South County Trail
East Greenwich, RI 02818

Dear Mr. John Charette, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Denis Sheahan
Independent Bank Corp.
288 Union Street
Rockland, MA 02370

Dear Mr. Denis Sheahan, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Robert N. Shuster
Independent Bank Corporation
230 West Main Street
Ionia, MI 48846

Dear Mr. Robert N. Shuster, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Mark T. Gorski
Indiana Community Bancorp
501 Washington Street
Columbus, IN 47201

Dear Mr. Mark T. Gorski, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Doug Wright
Intermountain Community Bancorp/Panhandle State Bank
414 Church Street
Sandpoint, ID 83864

Dear Mr. Doug Wright, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Cary Plotkin Kavy
International Bancshares Corporation/ International Bank of Commerce
1200 San Bernardo Ave.
Laredo, TX 78240

Dear Mr. Cary Plotkin Kavy, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Lowell S. Dansker
Intervest Bancshares Corporation
One Rockefeller Plaza - 4th Floor
New York, NY 10020-2002

Dear Mr. Lowell S. Dansker, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009




JP Morgan Chase & Co.
Mr. Michael J. Cavanagh
270 Park Avenue
New York, NY 10017

Dear Mr. Michael J. Cavanagh, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Henry L. Meyer
KeyCorp/Keybank National Association
127 Public Square
Cleveland, OH 41114

Dear Mr. Henry L. Meyer, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Steve Foster
LCNB Corp.
2 North Broadway, PO Box 59
Lebanon, OH 45036

Dear Mr. Steve Foster, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Sushil K. Tuli
Leader Bancorp, Inc./Leader Bank, National Assocation
180 Massachusetts Avenue
Arlington, MA 02474

Dear Mr. Sushil K. Tuli, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Daniel E. Klimas
LNB Bancorp Inc.
457 Broadway
Lorain, OH 44052

Dear Mr. Daniel E. Klimas , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Gerald T. Mulligan
LSB Corporation
30 Massachusetts Avenue
North Andover, MA 01845

Dear Mr. Gerald T. Mulligan, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. René F. Jones
M&T Bank Corporation
One M&T Plaza
Buffalo, NY 14203

Dear Mr. René F. Jones, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. David Wadlington
Magna Bank
6525 Quail Hollow Rd. Suite 513
Memphis, TN 38120

Dear Mr. David Wadlington , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Archie M. Brown, Jr.
MainSource Financial Group, Inc.
2105 North State Road 3 Bypass
Greensburg, IN 47240

Dear Mr. Archie M. Brown, Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Dean Fletcher
Manhattan Bancorp
2141 Rosecrans Ave, Suite 1160
El Segundo, CA 90245

Dear Mr. Dean Fletcher, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. George Moncada
Marquette National Corporation
6316 South Western
Chicago, IL 60636

Dear Mr. George Moncada, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Randall J. Erickson
Marshall & Ilsley Corporation
770 North Water St.
Milwaukee, WI 53202

Dear Mr. Randall J. Erickson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Mitchell Feiger
MB Financial Inc.
800 West Madison St.
Chicgo, IL 60607

Dear Mr. Mitchell Feiger, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. David Choi
MetroCorp Bancshares, Inc.
9600 Bellaire Blvd., Suite 252
Houston, TX 77036

Dear Mr. David Choi, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Kevin W. Laudenslager
Mid Penn Bancorp, Inc./Mid Penn Bank
349 Union Street
Millersburg, PA 17061

Dear Mr. Kevin W. Laudenslager, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                  OFFICE OF THE SPECIAL INSPECTOR GENERAL
                      TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. J. Eustis Corrigan Jr.
MidSouth Bancorp, Inc.
102 Versailles Boulevard
Lafayette, LA 70501

Dear Mr. J. Eustis Corrigan Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                    (1) A narrative response specifically outlining (a) your anticipated use of
                        TARP funds; (b) whether the TARP funds were segregated from other
                        institutional funds; (c) your actual use of TARP funds to date; and (d)
                        your expected use of unspent TARP funds. In your response, please take
                        into consideration your anticipated use of TARP funds at the time that
                        you applied for such funds, or any actions that have taken that you would
                        not have been able to take absent the infusion of TARP funds.

                    (2) Your specific plans, and the status of implementation of those plans, for
                        addressing executive compensation requirements associated with the
                        funding. Information provided regarding executive compensation should
                        also include any assessments made of loan risks and their relationship to
                        executive compensation; how limitations on executive compensation will
                        be implemented in line with Department of Treasury guidelines; and
                        whether any such limitations may be offset by other changes to other,
                        longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. James Giancola
Midwest Banc Holdings, Inc.
501 West North Ave.
Melrose Park, IL 60160

Dear Mr. James Giancola, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Anita M. Robinson
Mission Community Bancorp/Mission Community Bank
581 Higuera Street
San Luis Obispo, CA 93401

Dear Ms. Anita M. Robinson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Tamara Gurney
Mission Valley Bancorp/ Mission Valley Bank
9116 Sunland Blvd
Sun Valley, CA 91352

Dear Ms. Tamara Gurney, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. William M. Pierce, Jr.
Monadnock Bancorp, Inc.
1 Jaffrey Road, P.O. Box 888
Peterborough, NH 03458

Dear Mr. William M. Pierce, Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Brad E. Schwartz
Monarch Financial Holdings, Inc.
1101 Executive Blvd.
Chesapeake, VA 23320

Dear Mr. Brad E. Schwartz, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009




Morgan Stanley
Mr. Colm Kelleher
1585 Broadway
New York, NY 10036

Dear Mr. Colm Kelleher, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Kurt M. Saylor
Morrill Bancshares, Inc.
6740 Antioch Road
Merriam, KS 66204

Dear Mr. Kurt M. Saylor, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. David W. Heeter
MutualFirst Financial, Inc.
110 E. Charles Street
Muncie, IN 47305

Dear Mr. David W. Heeter, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Alvin D. King
Nara Bancorp, Inc.
3731 Wilshire Blvd. #1000
Los Angeles, CA 90010

Dear Mr. Alvin D. King, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Michael R. Reinhard
National Penn Bancshares, Inc.
Philadelphia and Reading Avenues
P.O. Box 547
Boyertown, PA 19512

Dear Mr. Michael R. Reinhard, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Barry W. Uzel
NCAL Bancorp
145 South Fairfax Avenue
Los Angeles, CA 90036

Dear Mr. Barry W. Uzel, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Stephen W. Ensign
New Hampshire Thrift Bancshares, Inc.
9 Main Street
Newport, NH 03773

Dear Mr. Stephen W. Ensign, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Howard P. Milstein
New York Private Bank & Trust Corp. / Emigrant Bank
5 East 42nd Street
New York, NY 10017

Dear Mr. Howard P. Milstein, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Pressley A. Ridgill
NewBridge Bancorp/New Bridge Bank
1501 Highwoods Boulevard, Suite 400
Greensboro, NC 27410

Dear Mr. Pressley A. Ridgill, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Robert B. Atwell
Nicolet Bankshares, Inc./Nicolet National Bank
111 North Washington St.
Green Bay, WI 54301

Dear Mr. Robert B. Atwell, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. David M. Bradley
North Central Bancshares, Inc.
825 Central Avenue
Fort Dodge, IA 50501

Dear Mr. David M. Bradley, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Robert Johnson
Northeast Bancorp
500 Canal Street
Lewiston, ME 04240

Dear Mr. Robert Johnson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. William R. Dodds
Northern Trust Corporation
50 S. LaSalle St.
Chicago, IL 60603

Dear Mr. William R. Dodds, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Rick McCarthy
Oak Valley Bancorp
125 N Third Avenue
Oakdale, CA 95361

Dear Mr. Rick McCarthy, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. John R. Gabarino
OceanFirst Financial Corp.
975 Hooper Avenue
Toms River, NJ 08754

Dear Mr. John R. Gabarino, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Christine M. Rush
Old Line Bancshares, Inc.
1525 Pointer Ridge Place
Bowie, MD 20716

Dear Ms. Christine M. Rush, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Robert G. Jones
Old National Bancorp
One Main St.
Evansville, IN 47708

Dear Mr. Robert G. Jones , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Doug Cheatham
Old Second Bancorp, Inc.
37 South River Street
Aurora, Il 60506

Dear Mr. Doug Cheatham, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Kevin Cohee
One United Bank
100 Franklin Street Suite 600
Boston, MA 02110

Dear Mr. Kevin Cohee, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. George Leis
Pacific Capital Bancorp
1021 Anacapa St. 3rd floor
Santa Barbara, CA 93101

Dear Mr. George Leis , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Andrew H. Chung
Pacific City Finacial Corporation/ Pacific City Bank
3701 Wilshire Blvd, Suite 402
Los Angeles, CA 90010

Dear Mr. Andrew H. Chung, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Steven A. Brown
Pacific Coast Bankers' Bancshares
340 Pine Street, Suite 401
San Francisco, CA 94104

Dear Mr. Steven A. Brown, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Michael S. Hahn
Pacific Coast National Bancorp
905 Calle Amanecer, Suite 100
San Clemente, CA 92673

Dear Mr. Michael S. Hahn, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Brian H. Kelley
Pacific Commerce Bank
420 E. 3rd Street
Los Angeles, CA 90013

Dear Mr. Brian H. Kelley, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Andrew Kim
Pacific International Bancorp
1155 N 130th Street
Seattle , WA 98133

Dear Mr. Andrew Kim , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. John W. Kozak
Park National Corporation
50 North Third Street
Newark, OH 43055

Dear Mr. John W. Kozak, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Robert J. McCarthy, Jr.
Parkvale Financial Corporation
4220 William Penn Highway
Monroeville, PA 15146

Dear Mr. Robert J. McCarthy, Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Michael J. Dee
Patapsco Bancorp, Inc.
1301 Merritt Blvd.
Dundalk, MD 21222

Dear Mr. Michael J. Dee , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. William D. Ellis
Patriot Bancshares, Inc./ Patriot Bank
7500 San Felipe Suite 125
Houston, TX 77063

Dear Mr. William D. Ellis, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Arthur F. Birmingham
Peapack-Gladstone Financial Corporation
158 Route 206 North
Gladstone, NJ 07934

Dear Mr. Arthur F. Birmingham, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Tony Wolfe
Peoples Bancorp of North Carolina, Inc.
518 West C St. PO Box 467
Newton, NC 28658

Dear Mr. Tony Wolfe , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                  OFFICE OF THE SPECIAL INSPECTOR GENERAL
                      TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Harold R. Carpenter
Pinnacle Financial Partners, Inc.
211 Commerce Street, Suite 300
Nashville, TN 37201

Dear Mr. Harold R. Carpenter, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Alan B. White
Plains Capital Corporation
2911 Turtle Creek Blvd, Ste 1700
Dallas, TX 75219

Dear Mr. Alan B. White , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Randall C. King
PNC Financial Services Group Inc.
249 Fifth Ave.
Pittsburgh, PA 15222-2707

Dear Mr. Randall C. King , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Richard L. Carrion
Popular, Inc.
P.O. Box 362708
San Juan, PR 00936-2708

Dear Mr. Richard L. Carrion, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Maria L. Bouvette
Porter Bancorp, Inc.(PBI) Louisville, KY
2500 Eastpoint Parkway
Louisville, KY 40223

Dear Ms. Maria L. Bouvette , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Robert L. Davis
Provident Banshares Corp.
114 East Lexington St.
Baltimore, MD 21201

Dear Mr. Robert L. Davis , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                               1500 Pennsylvania Ave., N.W., Suite 1064
                                      Washington, D.C. 20220

                                       February 6, 2009



Mr. Philip Mitterling
Puget Sound Bank
10500 NE 8th St. Suite 1800
Bellevue, WA 98004

Dear Mr. Philip Mitterling, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Ramsey K. Hamadi
Pulaski Financial Corp
12300 Olive Blvd.
Creve Coeur, MO 63141

Dear Mr. Ramsey K. Hamadi, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. William F. Easterlin
The Queensborough Company
113 E Broad St
Louisville, GA 30434

Dear Mr. William F. Easterlin, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Fred Moore
Redwood Capital Bancorp
402 G Street
Eureka, CA 95501

Dear Mr. Fred Moore, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Dean K. Toft
Redwood Financial, Inc.
P.O. Box 317
Redwood Falls, MN 56283

Dear Mr. Dean K. Toft, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Irene Esteves
Regions Financial Corp./ Regions Bank
1900 5th Ave. North
Birmingham, AL 35203

Dear Ms. Irene Esteves, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Jack H. Goldstein
Rising Sun Bancorp
P.O. Box 370
Rising Sun, MD 21911

Dear Mr. Jack H. Goldstein, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Mark Kochvar
S&T Bancorp
800 Philadelphia Street
Indiana, PA 15701

Dear Mr. Mark Kochvar, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. John J. Kennedy
Saigon National Bank
15606 Brookhurst St. Suite C&D
Westminster, CA 92683

Dear Mr. John J. Kennedy, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                  OFFICE OF THE SPECIAL INSPECTOR GENERAL
                      TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Daniel J. Schrider
Sandy Spring Bancorp, Inc.
17801 Georgia Ave
Olney, MD 20832

Dear Mr. Daniel J. Schrider , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Larry H. Putnam
Santa Lucia Bancorp
7480 El Camino Real
Atascadero, CA 93422

Dear Mr. Larry H. Putnam, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. John C. Pollok
SCBT Financial Corporation
520 Gervais Street
Columbia, SC 29201

Dear Mr. John C. Pollok, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. William R. Hahl
Seacoast Banking Corporation of Florida/Seacoast National Bank
P.O. Box 9012
Stuart, FL 34995

Dear Mr. William R. Hahl, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Richard M. Sanborn
Seacoast Commerce Bank
678 Third Avenue, Suite 310
Chula Vista, CA 91910

Dear Mr. Richard M. Sanborn, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Paul F. Rodeno
Security Business Bancorp/Security Business Bank of San Diego
701 B Street, Suite 100
San Diego, CA 92101

Dear Mr. Paul F. Rodeno, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Michael T. Vanderpool
Security California Bancorp/ Security Bank of California
3403 Tenth St., Ste. 830
Riverside, CA 92501

Dear Mr. Michael T. Vanderpool, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Roy Lindburg
Security Federal Corporation
238 Richland Avenue NW
Aiken, SC 29801

Dear Mr. Roy Lindburg, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Thomas G. Bevivino
Severn Bancorp, Inc.
200 Westgate Circle Suite 200
Annapolis, MD 21401

Dear Mr. Thomas G. Bevivino , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. W. Moorhead Vermilye
Shore Bancshares, Inc.
18 E. Dover St.
Easton, MD 21601

Dear Mr. W. Moorhead Vermilye, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Eric Howell
Signature Bank
565 Fifth Avenue
New York, NY 10017

Dear Mr. Eric Howell , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Stewart E. McClure, Jr.
Somerset Hills Bancorp
155 Morristown Road
Bernardsville, NJ 07924

Dear Mr. Stewart E. McClure, Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Allen Nelson
Sound Banking Company
5039 Executive Drive
Morehead City, NC 28557

Dear Mr. Allen Nelson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. James R. Gordon
South Financial Group, Inc./ Carolina First Bank
102 South Main Street
Greenville, SC 29601

Dear Mr. James R. Gordon, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Brent Black
Southern Bancorp, Inc.
605 Main Street, Suite 202
Arkadelphia, AR 71923

Dear Mr. Brent Black, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. F. Scott Bauer
Southern Community Financial Corp./ Southern Community Bank & Trust
4605 Country Club Road
Winston-Salem, NC 27104

Dear Mr. F. Scott Bauer, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Greg A. Steffens
Southern Missouri Bancorp, Inc./ Southern Missouri Bank & Trust Co.
531 Vine Street
Poplar Bluff, MO 63901

Dear Mr. Greg A. Steffens, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. James I. Lundy
Southwest Bancorp, Inc.
608 South Main Street
Stillwater, OK 74074

Dear Mr. James I. Lundy, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Thomas M. O'Brien
State Bancorp, Inc./State Bank of Long Island
Two Jericho Plaza, Wing C
Jericho, NY 11753

Dear Mr. Thomas M. O'Brien, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Rodney C. Jordahl
State Bankshares, Inc.
3100 13th Avenue South
Fargo, ND 58103

Dear Mr. Rodney C. Jordahl, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009




State Street Corp.
Mr. Edward J. Resch
One Lincoln Street
Boston, MA 02111

Dear Mr. Edward J. Resch, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                               1500 Pennsylvania Ave., N.W., Suite 1064
                                      Washington, D.C. 20220

                                       February 6, 2009



Mr. Jeffrey W. Farrar
StellarOne Corporation
590 Peter Jefferson Parkway; Suite 250
Charlottesville, VA 22911

Dear Mr. Jeffrey W. Farrar, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. John W. Tietjen
Sterling Bancorp
650 Fifth Avenue
New York, NY 10019

Dear Mr. John W. Tietjen, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. J. Downey Bridgwater
Sterling Bancshares, Inc./Sterling Bank
2550 North Loop West, Suite 600
Houston, TX 77092

Dear Mr. J. Downey Bridgwater, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Daniel G. Byrne
Sterling Financial Corporation/Sterling Savings Bank
111 N Wall
Spokane, WA 99201

Dear Mr. Daniel G. Byrne, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Thomas Duryea
Summit State Bank
500 Bicentennial Way
Santa Rosa, CA 95403

Dear Mr. Thomas Duryea, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Thomas X. Geisel
Sun Bancorp, Inc
226 Landis Avenue
Vineland, NJ 08360

Dear Mr. Thomas X. Geisel, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Mark A. Chancy
SunTrust Banks, Inc.
803 Peachtree St., NE 30th Floor
Atlanta, GA 30308

Dear Mr. Mark A. Chancy, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Mark A. Chancy
SunTrust Banks, Inc.
803 Peachtree St., NE 30th Floor
Atlanta, GA 30308

Dear Mr. Mark A. Chancy , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. James A. White
Superior Bancorp Inc.
17 20th Street North
Birmingham, AL 35203

Dear Mr. James A. White, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Edward C. Ashby, III
Surrey Bancorp/Surrey Bank & Trust
145 North Renfro Street
Mount Airy, NC 27030

Dear Mr. Edward C. Ashby, III, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Drew K. Hostetter
Susquehanna Bancshares, Inc
26 North Cedar Street
Lititz, PA 17543

Dear Mr. Drew K. Hostetter, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Michael Descheneaux
SVB Financial Group
3005 Tasman Drive
Santa Clara, CA 95054

Dear Mr. Michael Descheneaux , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Samuel F. Hatcher
Synovus Financial Corp./ Columbus Bank & Trust Co.
1111 Bay Avenue Suite 500
Colombus, GA 31901

Dear Mr. Samuel F. Hatcher , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Jerry Aldape
Syringa Bancorp
1299 N. Orchard St.
Boise, ID 83706

Dear Mr. Jerry Aldape, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Mark Hoppe
Taylor Capital Group
9550 West Higgins Road
Rosemont, IL 60018

Dear Mr. Mark Hoppe , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Sean P. Chaney
TCB Holding Company, Texas Community Bank
16610 Interstate 45
The Woodlands, TX 77384

Dear Mr. Sean P. Chaney, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Jim Broucek
TCF Financial Corporation
200 Lake Street East
Wayzata, MN 55391

Dear Mr. Jim Broucek , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Sebastian J. Melluzzo
TCNB Financial Corp/The Citizens National Bank of Southwestern Ohio
29 West Whipp Road
Dayton, OH 45459

Dear Mr. Sebastian J. Melluzzo, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Frank Perez
Tennessee Commerce Bancorp, Inc./ Tennessee Commerce Bank
381 Mallory Station Road
Franklin, TN 37067

Dear Mr. Frank Perez, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Ken Scarboro
Tennessee Valley Financial Holdings, Inc.
401 S. Illinois Avenue
Oak Ridge, TN 37830

Dear Mr. Ken Scarboro, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Peter B. Bartholow
Texas Capital Bancshares, Inc.
2100 McKinney Avenue, Suite 900
Dallas, TX 75201

Dear Mr. Peter B. Bartholow, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Royce Fletcher
Texas National Bancorporation
300 Neches Street P.O. Box 710
Jacksonville, TX 75766

Dear Mr. Royce Fletcher, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Martin F. Egan
The Bancorp, Inc./The Bancorp Bank
409 Silverside Road, Suite 105
Wilmington, DE 19809

Dear Mr. Martin F. Egan, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Jeff Blada
The Baraboo Bancorporation
101 Third Avenue
Baraboo, WI 53913

Dear Mr. Jeff Blada, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. David A. Lentini
The Connecticut Bank and Trust Company
58 State House Square
Hartford, CT 06103-3902

Dear Mr. David A. Lentini, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Michael P. Hosey
The Elmira Savings Bank, FSB
333 East Water Street
Elmira, NY 14901

Dear Mr. Michael P. Hosey, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Daniel R. Daigneault
The First Bancorp, Inc.
223 Main St
P.O. Box 940
Damariscotta, ME 04543-0940

Dear Mr. Daniel R. Daigneault, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Doyle Thigpen
The Little Bank, Incorporated
1101 Vernon Ave.
Kinston, NC 28501

Dear Mr. Doyle Thigpen, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Thomas Longe
TIB Financial Corp/TIB Bank
599 9th Street N
Naples, FL 34102

Dear Mr. Thomas Longe, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Jim Bedsole
Tidelands Bancshares, Inc
875 Lowcountry Blvd.
Mt. Pleasant, SC 29464

Dear Mr. Jim Bedsole, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Dean J. Brydon
Timberland Bancorp, Inc.
624 Simpson Ave
Hoquiam, WA 98550

Dear Mr. Dean J. Brydon, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Clyde E. McFarland, Jr.
TowneBank
5716 High Street
Portsmouth, VA 23703

Dear Mr. Clyde E. McFarland, Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Jeffrey L. Nash
Treaty Oak Bancorp, Inc.
101 Westlake Drive
Austin, TX 78746

Dear Mr. Jeffrey L. Nash, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Michael Middleton
Tri-County Financial Corporation
3035 Leonard Town Road
Waldorf, MD 20601

Dear Mr. Michael Middleton , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Louis E. Greer
Trustmark Corporation
248 E Capital Street
Jackson, MS 39201

Dear Mr. Louis E. Greer , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Lee R. Mitau
U.S. Bancorp
800 Nicollet Mall
Minneapolis, MN 55402

Dear Mr. Lee R. Mitau , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Craig S. On
UCBH Holdings, Inc.
555 Montgomery St.
San Francisco, CA 94111

Dear Mr. Craig S. On , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Ron Farnsworth
Umpqua Holdings Corp.
1 SW Columbia St., ste 1200
Portland, OR 97258

Dear Mr. Ron Farnsworth , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. G. William Beale
Union Bankshares Corporation
211 North Main Street; PO Box 446
Bowling Green, VA 22427

Dear Mr. G. William Beale, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Robert K. Chapman
United Bancorp, Inc.
205 E. Chicago Blvd., PO Box 248
Tecumseh, MI 49286

Dear Mr. Robert K. Chapman, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                  OFFICE OF THE SPECIAL INSPECTOR GENERAL
                      TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Robert R. Jones, III
United Bancorporation of Alabama, Inc.
200 E. Nashville Avenue P.O. Box 8
Atmore, AL 36502

Dear Mr. Robert R. Jones, III, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Jimmy C. Tallent
United Community Banks, Inc.
63 Highway 515
Blairsville, GA 30512

Dear Mr. Jimmy C. Tallent , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Harold C. Rauner
United Financial Banking Companies, Inc.
133 Maple Avenue, East
Vienna, VA 22180

Dear Mr. Harold C. Rauner, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. James A. Hughes
Unity Bancorp, Inc./Unity Bank
64 Old Highway 22
Clinton, NJ 08809

Dear Mr. James A. Hughes, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. David Beaver
Uwharrie Capital Corp/Bank of Stanly
131 N 1st St
P.O. Box 338
Albemarle, NC 28001

Dear Mr. David Beaver, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Rebecca I. Holowich
Valley Community Bank
465 Main Street
Pleasanton, CA 94566

Dear Ms. Rebecca I. Holowich, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                  OFFICE OF THE SPECIAL INSPECTOR GENERAL
                      TROUBLED ASSET RELIEF PROGRAM
                               1500 Pennsylvania Ave., N.W., Suite 1064
                                      Washington, D.C. 20220

                                       February 6, 2009



Mr. Ellis L. Gutshall
Valley Financial Corporation
36 Church Avenue, SW
Roanoke, VA 24011

Dear Mr. Ellis L. Gutshall, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Alan Eskow
Valley National Bancorp
1455 Valley Rd.
Wayne, NJ 07470

Dear Mr. Alan Eskow , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Peter A. Converse
Virginia Commerce Bancorp
5350 Lee Highway
Arlington, VA 22207

Dear Mr. Peter A. Converse, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. Robert D. Davis
VIST Financial Corp./VIST Bank
1240 Braodcasting Rd
P.O. Box 6219
Wyomissing, PA 19610-0219

Dear Mr. Robert D. Davis, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Ms. Jan A. Miller
Wainwright Bank & Trust Company
63 Franklin Street
Boston, MA 2110

Dear Ms. Jan A. Miller, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Richard A. Shields
Washington Banking Company/ Whidbey Island Bank
450 SW Bayshore Drive
Oak Harbor, WA 98277-7003

Dear Mr. Richard A. Shields, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Roy M. Whitehead
Washington Federal Inc./ Washington Federal Savings & Loan Association
425 Pike St.
Seattle, WA 98101

Dear Mr. Roy M. Whitehead , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Gerald Plush
Webster Financial Corporation
145 Bank St.
Waterbury, CT 6702

Dear Mr. Gerald Plush , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009




Wells Fargo & Co.
Mr. Howard I. Atkins
420 Montgomery street
San Francisco, CA 94104

Dear Mr. Howard I. Atkins, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Paul M. Lambert
Wesbanco Bank Inc.
1 Bank Plaza
Wheelnig , WV 26003

Dear Mr. Paul M. Lambert , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Douglas R. Gulling
West Bancorporation, Inc.
1601 22nd St.
West Des Moines, IA 50266

Dear Mr. Douglas R. Gulling, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Dale Gibbons
Western Alliance Bancorporation/Bank of Nevada
27 West Sahara Ave.
Las Vegas, NV 89102

Dear Mr. Dale Gibbons , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Andrew Montgomery
Western Community Bancshares, Inc.
77-844 Las Montanas Rd., Ste. B
Palm Desert, CA 92211

Dear Mr. Andrew Montgomery, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 6, 2009



Mr. Christopher J. Gavin
Western Illinois Bancshares Inc.
200 East Broadway
Monmouth, IL 61462

Dear Mr. Christopher J. Gavin , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                      February 6, 2009



Mr. Thomas L. Callicutt, Jr.
Whitney Holding Corporation
228 St. Charles Avenue
New Orleans, LA 70130

Dear Mr. Thomas L. Callicutt, Jr., 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. David R. Gibson
Wilmington Trust Corporation
1100 North Market Street
Wilmington, DE 19890

Dear Mr. David R. Gibson, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                      February 6, 2009



Mr. Alex Ko
Wilshire Bancorp, Inc.
3200 Wilshire Blvd., Suite 1400
Los Angeles, CA 90010

Dear Mr. Alex Ko, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                     (1) A narrative response specifically outlining (a) your anticipated use of
                         TARP funds; (b) whether the TARP funds were segregated from other
                         institutional funds; (c) your actual use of TARP funds to date; and (d)
                         your expected use of unspent TARP funds. In your response, please take
                         into consideration your anticipated use of TARP funds at the time that
                         you applied for such funds, or any actions that have taken that you would
                         not have been able to take absent the infusion of TARP funds.

                     (2) Your specific plans, and the status of implementation of those plans, for
                         addressing executive compensation requirements associated with the
                         funding. Information provided regarding executive compensation should
                         also include any assessments made of loan risks and their relationship to
                         executive compensation; how limitations on executive compensation will
                         be implemented in line with Department of Treasury guidelines; and
                         whether any such limitations may be offset by other changes to other,
                         longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                     February 6, 2009



Mr. David A Dykstra
Wintrust Financial Corporation
727 North Bank Lane
Lake Forest, IL 60045

Dear Mr. David A Dykstra, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                             1500 Pennsylvania Ave., N.W., Suite 1064
                                    Washington, D.C. 20220

                                      February 6, 2009



Mr. William A. Long
Yadkin Valley Financial Corporation
209 North Bridge Street
Elkin, NC 28621

Dear Mr. William A. Long, 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                              1500 Pennsylvania Ave., N.W., Suite 1064
                                     Washington, D.C. 20220

                                      February 6, 2009



Mr. Doyle L. Arnold
Zions Bancorporation
1 South Main St., Suite 1500
Salt Lake City, UT 84133

Dear Mr. Doyle L. Arnold , 

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 6, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
